           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Attestation Engagement –                     Date:    December 18, 2013
           Review of FY 2013 Drug Control Obligation
           Summary and Performance Summary Reports,
           Federal Aviation Administration
           Project No. 14F3008F000

  From:                                                           Reply to
           Louis C. King                                          Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Federal Aviation Administrator

           On January 18, 2013, the Office of National Drug Control Policy (ONDCP) issued its
           Accounting of Drug Control Funding and Performance Summary Circular (the
           Circular). The Circular requires agencies to submit drug control obligations and
           performance reports. It further requires inspectors general to review these reports.

           As required, the Office of Inspector General (OIG) is initiating an attestation
           engagement of the Federal Aviation Administration’s (FAA) fiscal year 2013 Drug
           Control Obligation Summary and Performance Summary Reports. Our objective is to
           provide negative assurance as to whether any information came to our attention based
           on the work performed to indicate that management’s assertions are not fairly
           presented, in all material respects, in conformity with the Circular’s requirements. We
           will not express an opinion on the accuracy of FAA’s Drug Control Obligation
           Summary and Performance Summary Reports.

           We will begin our attestation engagement immediately and will contact your audit
           liaison to schedule an entrance conference. The Circular requires that we submit our
           report to ONDCP by February 1, 2014. To meet this timeframe, we will need the
           signed fiscal year 2013 reports by January 2, 2014.
                                                                           2

If you have any questions, please call me at (202) 366-1407, or George Banks,
Program Director, at (410) 962-1729.

                                     #

cc: Thomas Johnson, ONDCP
    Richelle Perazich, ONDCP
    DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
